No. ___

In The
Supreme Court of the United States

KYLE BROOKS
Applicant/Petitioner,
v.
PEOPLE OF THE STATE OF COLORADO
Respondent.

APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF COLORADO

F. Andrew Hessick
160 Ridge Road
Chapel Hill, NC 27599
(919) 962-4332

Jud Lohnes
OFFICE OF THE COLORADO
STATE PUBLIC DEFENDER
1300 Broadway, Suite 300
Denver, Colorado 80203
(303) 764-6468

Richard A. Simpson
Counsel of Record
WILEY REIN LLP
1776 K Street, N.W.
Washington, D.C. 20006
(202) 719-7000
rsimpson@wileyrein.com

Counsel for Petitioner

TO THE HONORABLE SONIA SOTOMAYOR, ASSOCIATE JUSTICE OF
THE SUPREME COURT OF THE UNITED STATES AND CIRCUIT JUSTICE
FOR THE TENTH CIRCUIT:
Pursuant to 28 U.S.C. § 2101(c) and this Court’s Rules 13.5, 21, 22, and
30.2, Kyle Books respectfully requests a 60-day extension of time, to and including
February 21, 2020, within which to file a petition for a writ of certiorari to the
Colorado Supreme Court.
The Colorado Supreme Court issued an opinion and entered its judgment on
September 9, 2019. Brooks v. Colorado, No. 17SC614 (Colo. Sept. 9, 2019). That
Court denied the petitioner’s timely application for rehearing and issued a modified
opinion on September 23, 2019. Brooks v. Colorado, 448 P.3d 310 (Colo. 2019).
Copies of the modified opinion and the denial of rehearing are attached hereto. See
Appendices A and B. Unless extended, the time within which to file a petition for
a writ of certiorari will expire on December 23, 2019. This Court’s jurisdiction
would be invoked under 28 U.S.C. § 1257(a).
After a jury found Brooks guilty of two felonies, the trial court adjudicated
him to be a habitual criminal based on his prior convictions, including his guilty
plea to a charge of theft from a person. Brooks contends that the prior conviction
for theft from a person is constitutionally invalid because his guilty plea was not
made “voluntarily, knowingly, and intelligently,” as required by this Court’s
decision in Bradshaw v. Stumpf, 545 U.S. 175, 183 (2005).

The Colorado Supreme Court acknowledged that the information charging
Brooks with theft was deficient in that it omitted an essential element of the crime
charged, namely that theft from a person requires a specific intent to permanently
deprive the victim of the property. Brooks, 448 P.3d at 314. Likewise, it
acknowledged that, at Brooks’s plea hearing, the trial court omitted the same
element in its oral summary of the crime charged. Id. On that basis, the Colorado
Supreme Court concluded that Brooks had made a prima facia showing that his
guilty plea to the theft from a person charge was constitutionally invalid. Id. at
315.
Nonetheless, the Colorado Supreme Court “concluded by a preponderance
of the evidence that Brooks understood the elements of the crime to which he
pleaded guilty[,]” and that the plea was therefore constitutionally valid. Id. In
reaching that conclusion, the Colorado Supreme Court relied on its view that theft
is a relatively simple crime to understand and that Brooks had pled guilty to theft
in a separate unrelated case. Id. at 315. The Colorado Supreme Court also noted
that Brooks’s counsel had signed a standard, generic form indicating that she had
“discussed the facts and law applicable to the matter with Brooks.” Id. at 312.
Neither the form nor any of the other plea agreement documents recited the
elements of the crime to which Brooks was pleading guilty.

This Court has repeatedly stressed that a guilty plea is knowing and
intelligent only if the defendant receives “real notice of the true nature of the
charge against him[.]” Marshall v. Lonberger, 459 U.S. 422, 436 (1983); accord
Smith v. O’Grady, 312 U.S. 329, 334 (1941). Providing such notice is “the first
and most universally recognized requirement of due process.” Marshall, 459 U.S.
at 436.
Consistent with these principles, this Court has held that adequate notice
requires that the defendant be made aware of “the elements of the . . . charge to
which he pleaded guilty.” Bradshaw, 545 U.S. at 182–83 (emphasis added); see
also Henderson v. Morgan, 426 U.S. 637, 645 (1976) (invalidating a plea because
the defendant had not been informed of the “elements of the offense”). “Where a
defendant pleads guilty to a crime without having been informed of the crime's
elements, this standard is not met and the plea is invalid.” Bradshaw, 545 U.S. at
183.
Applying these doctrines in Henderson v. Morgan, this Court invalidated a
guilty plea because the defendant had not been made aware of the elements of the
offense to which he pled. There, a defendant pleaded guilty to second-degree
murder “on the advice of his attorneys.” Although one of the elements of the
offense was an intent to cause the death of the victim, the indictment did not
include that element of intent. Id. at 642. Moreover, neither “direct colloquy”

with the presiding judge nor earlier counsel by defendant’s lawyers referenced “the
requirement of intent to cause the death of the victim.” Id. at 642–43. Nor was
there a “factual statement or admission” by the defendant “necessarily implying”
that he had the relevant intent. Id. at 646. Given these failures to notify the
defendant of the critical element of intent, this Court held that the defendant’s
guilty plea was not voluntary and intelligent. Id.
The Colorado Supreme Court’s decision in this case directly conflicts with
the principles articulated by this Court in these cases. Here, the record shows that
the information charging Brooks with theft omitted an essential element of the
crime charged and that the trial court repeated that error in its summary of the
charge at the plea hearing. Thus, both the charging document and the trial judge
affirmatively misstated the elements of the crime to which Brooks was pleading
guilty.
There is nothing whatsoever in the record showing that these errors were
ever corrected or that Brooks was ever informed of all of the elements of the crime
to which he was pleading guilty. Indeed, there is no direct evidence at all that
anyone ever correctly told Brooks the elements of the crime. To the contrary, the
record shows that the defendant was affirmatively misinformed as to the elements
of the crime. This Court’s decisions require far more than the Colorado Supreme
Court’s speculative finding, based on circumstantial evidence, by a preponderance

of the evidence, that a defendant understood the elements of the crime to which he
was pleading guilty.
The Colorado Supreme Court’s decision also conflicts with decisions of
other courts. The Second and Eighth Circuits and the Utah Supreme Court have
held that a guilty plea is not knowing, intelligent, and voluntary if the trial court
fails to assure that the defendant understands the elements of the offense to which
defendant pleaded, even if defense counsel discusses the charges with the
defendant. See United States v. Blackwell, 199 F.3d 623 (2d Cir. 1999); Ivy v.
Caspari, 173 F.3d 1136 (8th Cir. 1999); Utah v. Alexander, 279 P.3d 371 (Utah
2012). It also conflicts with a decision of the Connecticut Supreme Court holding
that, if an indictment misstates the law and the court does not correct the
misstatement, a court cannot presume that defense counsel corrected that
misstatement out of court. Connecticut v. Childree, 454 A.2d 1279 (Conn. 1983).
If Brooks had challenged his plea in any of those other courts, his plea would have
been vacated.
Brooks intends to file a petition for a writ of certiorari seeking review of the
decision of the Supreme Court of Colorado. Additional time is necessary to permit
counsel to complete analysis of the issues to be raised in a petition and to prepare
and file a petition that adequately addresses those issues.

An extension of 60 days is warranted because counsel of record was not
involved in the prior proceedings in this case and therefore requires additional time
to study the record and relevant case law. In addition, since being retained in this
matter, counsel of record has had and will continue to have numerous preexisting
professional responsibilities, including evaluating and, if appropriate, preparing for
filing in this Court a petition for a writ of certiorari in H. Stephen Winters, Judge,
District Court of Louisiana, 4th Judicial District, et. al., Applicants, v. Stanley R.
Palowsky, III, individually and On Behalf of Alternative Environmental Solutions,
Inc., No. 19A593 (due February 3, 2020); preparation for and conducting as lead
counsel an arbitration of a confidential dispute from November 11-15, 2019;
preparation of post-arbitration briefs and other submissions due on January 10,
2020; oral argument in the United States Court of Appeals for the Second Circuit
on December 10, 2019 in Continental Casualty Co. v. Parnoff, No. 18-3031 (2d
Cir.); preparation of a reply brief on a summary judgment motion filed on
December 6, 2019 in Day Kimball Healthcare, Inc. v. Allied World Surplus Lines
Insurance Co., No. 3:19-cv-01521 (D. Conn.); preparation of a supplemental postargument submission filed on December 6, 2019 as requested by the court in
Evanston Insurance Co v. William Kramer & Associates, LLC, No. 8:16-cv-02324
(M.D. Fla.); and advising clients regarding multiple matters not currently in
litigation, including one confidential urgent matter requiring extensive immediate

assistance of counsel. Brooks is not aware of any party that would be prejudiced
by granting a 60-day extension.
CONCLUSION
Accordingly, Petitioner Kyle Brooks respectfully request that the time to file
a petition for a writ of certiorari be extended by 60 days, to and including February
21, 2020.
Respectfully submitted,

F. Andrew Hessick
160 Ridge Road
Chapel Hill, NC 27599
(919) 962-4332

_______________________
Richard A. Simpson
Counsel of Record
WILEY REIN LLP
1776 K Street, N.W.
Washington, D.C. 20006
(202) 719-7000
rsimpson@wileyrein.com

Jud Lohnes
OFFICE OF THE COLORADO
PUBLIC DEFENDER
1300 Broadway
Suite 300
Denver, Colorado 80203
(303) 764-6468
Counsel for Petitioner

Dated: December 9, 2019

APPENDIX A

Opinions of the Colorado Supreme Court are available to the
public and can be accessed through the Judicial Branch’s
homepage at http://www.courts.state.co.us. Opinions are also
posted on the Colorado Bar Association’s homepage at
http://www.cobar.org.
ADVANCE SHEET HEADNOTE
September 9, 2019
2019 CO 75
No. 17SC614, Brooks v. People—Habitual Offender—Prior Convictions—Plea
Advisement.
In this case, the supreme court considers whether a defendant’s prior guilty
plea to theft from a person was constitutionally obtained, such that it could be
used later to adjudicate the defendant a habitual offender.

We hold that the

defendant’s prior guilty plea to theft from a person was constitutionally valid
because the defendant understood the charge to which he pleaded guilty. Because
the defendant was convicted of a relatively simple offense, had prior, relevant
experience with the criminal justice system, and was represented by competent
counsel who certified that the defendant was advised of all the critical elements of
theft from a person, the prior guilty plea can be used to adjudicate the defendant
a habitual offender.

The Supreme Court of the State of Colorado
2 East 14th Avenue • Denver, Colorado 80203
2019 CO 75
Supreme Court Case No. 17SC614
Certiorari to the Colorado Court of Appeals
Court of Appeals Case No. 13CA1750
Petitioner:
Kyle Brooks,
v.
Respondent:
The People of the State of Colorado.
Judgment Affirmed
en banc
September 9, 2019

Attorneys for Petitioner:
Megan A. Ring, Public Defender
Jud Lohnes, Deputy Public Defender
Denver, Colorado
Attorneys for Respondent:
Philip J. Weiser, Attorney General
Christine Brady, Senior Assistant Attorney General
Denver, Colorado

JUSTICE BOATRIGHT delivered the Opinion of the Court.

¶1

After a jury found Kyle Brooks guilty of two felonies, the trial court

adjudicated him to be a habitual criminal based on his prior felony convictions,
including his guilty plea to theft from a person. As a result, the court sentenced
him to twenty-four years in prison. Brooks now claims that his prior theft from a
person conviction is constitutionally invalid. Therefore, we must determine if the
record establishes by a preponderance of the evidence whether Brooks understood
the elements of theft from a person when he previously pleaded guilty. We
conclude that it does. Accordingly, we hold that Brooks’s prior guilty plea to theft
from a person was constitutionally valid, and we affirm the judgment of the court
of appeals on different grounds.

I.
¶2

Facts and Procedural History

Brooks was convicted of two class 4 felony counts for victim tampering. The

prosecution also sought to adjudicate Brooks a habitual criminal under section
18-1.3-801, C.R.S. (2019), based on Brooks’s three prior felony convictions. Brooks,
however, asserts that one of those convictions, a 2010 theft conviction obtained
through a guilty plea, is constitutionally invalid. Therefore, we need to examine
the circumstances surrounding his guilty plea in that case.
¶3

In the 2010 case, the People charged Brooks with theft from a person after

he and an accomplice stole a purse; Brooks distracted the victim while his
accomplice grabbed the purse. Brooks pleaded guilty and waived a factual basis
2

for the crime. But both the charging document and the Rule 11 Advisement form
failed to include the requisite mens rea for theft from a person: the intent to
permanently deprive the victim of property. Additionally, the trial court did not
mention the specific intent element when accepting Brooks’s plea. The Rule 11
form, however, did include defense counsel’s signed certification to the court that
she had “discussed the facts and law applicable to this matter with [Brooks]
including the necessary culpable mental state, possible defense(s), and potential
penalties.” (Emphasis added.)
¶4

During the habitual criminal hearing in the present case, Brooks argued that

his 2010 theft conviction was constitutionally invalid and it could not serve as a
predicate felony for his habitual criminal adjudication. Specifically, he argued that
at the time he entered his guilty plea, he had not been informed that theft from a
person requires the specific intent to permanently deprive the victim of property.
The trial court here disagreed and instead found that Brooks understood what he
was pleading guilty to in the 2010 case based on the following: (1) he was
represented by competent counsel; (2) he asserted that he understood what he was
pleading guilty to; (3) he had previously pleaded guilty to misdemeanor theft; and
(4) the nature of the crime itself.
¶5

The court of appeals affirmed Brooks’s habitual criminal sentence,

concluding that the facts of the crime as alleged would have informed Brooks that
3

the particular theft in question was one where he intended to permanently deprive
the victim of property. People v. Brooks, 2017 COA 80, ¶ 40, __ P.3d __. Brooks then
filed a petition for certiorari review, and we granted review of three issues. 1

II.
¶6

Standard of Review

The constitutional validity of a guilty plea is a question of law that we

review de novo. Sanchez-Martinez v. People, 250 P.3d 1248, 1254 (Colo. 2011). But
we defer to a trial court’s findings of fact unless they are unsupported by the
record. Id.

III.
¶7

Analysis

To determine whether Brooks’s guilty plea was valid, we first discuss the

requirements of a constitutionally valid guilty plea, including the need to establish

1

We granted certiorari to review the following issues:
1. Whether a defendant enters a constitutionally valid guilty plea where the
charging document omits the specific intent element of the crime, the
trial court recites the defective charging document during its elemental
advisement, and defense counsel never advised the defendant of the
mens rea element.
2. Whether, when the trial court fails to advise the defendant of a critical
element of the crime to which he pleads guilty, knowledge of the omitted
element may be imputed to the defendant based on [the] “nature of the
underlying crime.”
3. Whether, when the trial court fails to advise the defendant of the specific
intent element of the charge to which he pleads guilty, the error is
susceptible to review under the constitutional harmless error standard.

4

that the defendant understood the crime to which he pleaded guilty. Next, we
clarify that, to ensure a defendant understands what he is pleading guilty to, a trial
court should explain the crime to a degree commensurate with the nature and
complexity of that crime.

Then, we examine the record to determine if it

demonstrates by a preponderance of the evidence that Brooks understood the
charge of theft from a person when he pleaded guilty, and we conclude that it
does. Therefore, we hold that Brooks’s prior guilty plea for theft from a person
was constitutionally valid.

A.
¶8

Law

A guilty plea is constitutionally valid when it has been made “voluntarily,

knowingly, and intelligently.” Bradshaw v. Stumpf, 545 U.S. 175, 183 (2005) (citing
Brady v. United States, 397 U.S. 742, 748 (1970)). To demonstrate that a plea is
constitutionally valid, “the record [must] affirmatively show the defendant’s
understanding of the critical elements of the crime to which the plea is tendered.”
Watkins v. People, 655 P.2d 834, 837 (Colo. 1982). The relevant mens rea is a critical
element of the crime. See id. at 838 (listing specific intent as a critical element). If
a defendant wishes to challenge the constitutional validity of a guilty plea, he
“must make a prima facie showing that the guilty plea was unconstitutionally
obtained.” Lacy v. People, 775 P.2d 1, 6 (Colo. 1989). If the defense makes this prima
facie showing, then the prosecution can rebut it by establishing “by a
5

preponderance of the evidence that the conviction was obtained” constitutionally.
Id. at 6–7.
¶9

When evaluating whether a conviction was constitutionally obtained, we

note that “no particular litany need be followed in accepting a tendered plea of
guilty” and that “the degree of explanation that a court should provide depends
on the nature and complexity of the crime.” Id. at 6. We have previously provided
guidance on which types of crimes are relatively complex and which are relatively
easy to understand. See id. (explaining that aggravated robbery and second-degree
murder are “understandable by persons of ordinary intelligence,” whereas crimes
such as conspiracy to commit burglary “require a greater showing of the
defendant’s understanding”).

Therefore, what is necessary to establish a

defendant’s understanding of the charge against him depends on the crime’s
complexity.

B.
¶10

Application

Brooks contends that he did not understand that he needed to have the

specific intent to permanently deprive the victim of her property when it was
taken. Brooks asserts that, without that understanding, his plea is constitutionally
invalid. To determine Brooks’s understanding of the charges against him, we look
at the record as a whole and focus on five aspects. First, we consider the nature of
the offense to which he pleaded guilty to see how difficult it is to understand the
6

elements of the crime charged. Second, we review the charging document to see
if it properly advised Brooks of the charge he was facing. Third, we examine how
the court advised Brooks during the plea hearing. Fourth, we consider Brooks’s
prior experience with the criminal justice system. Parke v. Raley, 506 U.S. 20, 36–37
(1992). Finally, because Brooks was represented by competent counsel, we factor
in defense counsel’s “assurance that the defendant has been properly informed of
the nature and elements of the charge to which he is pleading guilty.” Bradshaw,
545 U.S. at 183.
¶11

First, theft is not an abstract concept. People steal property because they

want to keep, use, or sell it. Thus, the intent to permanently deprive the victim of
property is not difficult to understand because keeping the stolen property serves
as the motivation for taking the item in the first place. We have previously
concluded that crimes such as second-degree murder and aggravated robbery are
easily understandable by a layperson, see Lacy, 775 P.2d at 6, and require less of a
showing to establish that the defendant understood the charge to which he
pleaded guilty. Certainly, theft falls safely within the sphere of those crimes, and
can be readily contrasted with more complicated crimes like conspiracy to commit
burglary.2 Because we conclude that the crime of theft from a person is relatively

As an illustration, consider the elements of theft and the elements of conspiracy
to commit burglary, side by side. Upon doing so, it is clear that the elements of
theft are relatively simple, whereas the elements of conspiracy to commit burglary
2

7

simple, the level of explanation required to demonstrate that Brooks understood
what he was pleading guilty to is relatively low.
¶12

Second, the charging document in this case was deficient because it omitted

the specific intent element of theft from a person:
COUNT 2-THEFT FROM A PERSON (F5)
That on or about April 17, 2010 in, or triable in, the County of Boulder,
State of Colorado KYLE CHANCE BROOKS unlawfully, feloniously,

are more complicated and, in addition, also require a defendant to understand the
elements of burglary itself:
Theft

Conspiracy to Commit Burglary

1. That the defendant,

1. That the defendant,

2. In the State of Colorado, at or
about the date and place
charged,

2. In the State of Colorado, at or
about the date and place
charged,

3. Obtained, retained, or exercised
control over anything of value of
another,

3. With the intent to promote or
facilitate the commission of the
crime of burglary,

4. Without authorization or by
threat or deception, and

4. Agreed with another person or
persons that they, or one or more
of them, would engage in
conduct which constituted the
crime of burglary or an attempt
to commit the crime of burglary,
and

5. Intended to deprive the other
person permanently of the use or
benefit of the thing of value.
COLJI-Crim. 4-4:01 (2018).

5. The defendant, or a coconspirator, performed an overt
act to pursue the conspiracy.
COLJI-Crim. G2:05 (2018).

8

and knowingly took a thing of value, namely: a purse, from the
person of [the victim]; in violation of section 18-4-401(1), (5), C.R.S.
Because of the lack of the specific intent element, we find that the charging
document failed to properly inform Brooks of all critical elements of the charge.
¶13

Third, the trial court advised Brooks in the same manner as the charging

document and did not mention the specific intent element. During the plea
hearing, the trial court read the charge verbatim from the charging document:
How do you plead with respect to that added Count 2 which charges
on or about April 17, 2010, in or triable in the county of Boulder, state
of Colorado, you unlawfully, feloniously, and knowingly took a thing
of value, namely a purse, from the person of [the victim] in violation
of section 18-4-401(1), (5), C.R.S.?
Because the court’s advisement suffered from the same flaw as the charging
document, we find that it too failed to inform Brooks of the critical element of
specific intent to permanently deprive the victim of property.
¶14

Fourth, we rely on Brooks’s prior experiences with the criminal justice

system to evaluate his understanding of his guilty plea to theft from a person; in
particular, we consider his previous guilty plea for misdemeanor theft. The trial
court found that Brooks pleaded guilty to theft just a year before his 2010 guilty
plea, and even though that theft was a misdemeanor, it had the same “specific
intent to permanently deprive” element as theft from a person. See § 18-4-401(1)(a),
(5), C.R.S. (2019). At the time he entered that guilty plea, Brooks was properly
advised—and he acknowledged that he understood—that he needed to have the
9

specific intent to permanently deprive the victim of the property taken to be guilty
of misdemeanor theft. He did not express any confusion or challenge that he had
the specific intent to permanently deprive the victim of property in the 2009 guilty
plea.
¶15

Finally, the trial court here expressly found that Brooks was represented by

competent counsel in the 2010 case, and Brooks stated on the record in 2010 that
defense counsel discussed the Rule 11 advisement form with him, and that he
understood the charge to which he pleaded guilty. That form, which Brooks and
defense counsel both signed, stated that defense counsel “discussed the facts and
law applicable to this matter with [Brooks] including the necessary culpable mental
state, possible defense(s), and potential penalties.” (Emphasis added.) Because we
have written assurance from competent counsel that Brooks understood what he
was pleading guilty to, we rely on it in determining whether Brooks made a
knowing, intelligent, and voluntary plea in accordance with constitutional
principles.
¶16

In considering the record as a whole, we agree with Brooks that he made a

prima facie showing that his theft from a person charge was constitutionally
invalid, but we conclude by a preponderance of the evidence that Brooks
understood the elements of the crime to which he pleaded guilty. When taken
together, the relatively simple nature of the crime of theft from a person, Brooks’s
10

guilty plea to misdemeanor theft just a year earlier, and defense counsel’s written
assurance that she explained to him the mens rea required to commit the offense,
convince us that Brooks understood what he was pleading guilty to at the time he
entered his plea. Accordingly, we hold that Brooks’s prior guilty plea for theft
from a person was constitutionally valid.

IV.
¶17

Conclusion

We vacate the opinion of the court of appeals and affirm the judgment on

different grounds.

11










$33(1',;%

The Supreme Court of the State of Colorado
2 East 14th Avenue • Denver, Colorado 80203
2019 CO 75M
Supreme Court Case No. 17SC614
Certiorari to the Colorado Court of Appeals
Court of Appeals Case No. 13CA1750
Petitioner:
Kyle Brooks,
v.
Respondent:
The People of the State of Colorado.
Judgment Affirmed
en banc
September 9, 2019
Opinion modified, and as modified, petition for rehearing DENIED. EN
BANC.
September 23, 2019

Attorneys for Petitioner:
Megan A. Ring, Public Defender
Jud Lohnes, Deputy Public Defender
Denver, Colorado
Attorneys for Respondent:
Philip J. Weiser, Attorney General
Christine Brady, Senior Assistant Attorney General
Denver, Colorado
JUSTICE BOATRIGHT delivered the Opinion of the Court.

¶1

After a jury found Kyle Brooks guilty of two felonies, the trial court

adjudicated him to be a habitual criminal based on his prior felony convictions,
including his guilty plea to theft from a person. As a result, the court sentenced
him to twenty-four years in prison. Brooks now claims that his prior theft from a
person conviction is constitutionally invalid. Therefore, we must determine if the
record establishes by a preponderance of the evidence whether Brooks understood
the elements of theft from a person when he previously pleaded guilty. We
conclude that it does. Accordingly, we hold that Brooks’s prior guilty plea to theft
from a person was constitutionally valid, and we affirm the judgment of the court
of appeals on different grounds.

I.
¶2

Facts and Procedural History

Brooks was convicted of two class 4 felony counts for victim tampering. The

prosecution also sought to adjudicate Brooks a habitual criminal under section
18-1.3-801, C.R.S. (2019), based on Brooks’s three prior felony convictions. Brooks,
however, asserts that one of those convictions, a 2010 theft conviction obtained
through a guilty plea, is constitutionally invalid. Therefore, we need to examine
the circumstances surrounding his guilty plea in that case.
¶3

In the 2010 case, the People charged Brooks with theft from a person after

he and an accomplice stole a purse; Brooks distracted the victim while his
accomplice grabbed the purse. Brooks pleaded guilty and waived a factual basis
2

for the crime. But both the charging document and the Rule 11 Advisement form
failed to include the requisite mens rea for theft from a person: the intent to
permanently deprive the victim of property. Additionally, the trial court did not
mention the specific intent element when accepting Brooks’s plea. The Rule 11
form, however, did include defense counsel’s signed certification to the court that
she had “discussed the facts and law applicable to this matter with [Brooks]
including the necessary culpable mental state, possible defense(s), and potential
penalties.” (Emphasis added.)
¶4

During the habitual criminal hearing in the present case, Brooks argued that

his 2010 theft conviction was constitutionally invalid and it could not serve as a
predicate felony for his habitual criminal adjudication. Specifically, he argued that
at the time he entered his guilty plea, he had not been informed that theft from a
person requires the specific intent to permanently deprive the victim of property.
The trial court here disagreed and instead found that Brooks understood what he
was pleading guilty to in the 2010 case based on the following: (1) he was
represented by competent counsel; (2) he asserted that he understood what he was
pleading guilty to; (3) he had previously pleaded guilty to misdemeanor theft; and
(4) the nature of the crime itself.
¶5

The court of appeals affirmed Brooks’s habitual criminal sentence,

concluding that the facts of the crime as alleged would have informed Brooks that
3

the particular theft in question was one where he intended to permanently deprive
the victim of property. People v. Brooks, 2017 COA 80, ¶ 40, __ P.3d __. Brooks then
filed a petition for certiorari review, and we granted review of three issues. 1

II.
¶6

Standard of Review

The constitutional validity of a guilty plea is a question of law that we

review de novo. Sanchez-Martinez v. People, 250 P.3d 1248, 1254 (Colo. 2011). But
we defer to a trial court’s findings of fact unless they are unsupported by the
record. Id.

III.
¶7

Analysis

To determine whether Brooks’s guilty plea was valid, we first discuss the

requirements of a constitutionally valid guilty plea, including the need to establish

1

We granted certiorari to review the following issues:
1. Whether a defendant enters a constitutionally valid guilty plea where the
charging document omits the specific intent element of the crime, the
trial court recites the defective charging document during its elemental
advisement, and defense counsel never advised the defendant of the
mens rea element.
2. Whether, when the trial court fails to advise the defendant of a critical
element of the crime to which he pleads guilty, knowledge of the omitted
element may be imputed to the defendant based on [the] “nature of the
underlying crime.”
3. Whether, when the trial court fails to advise the defendant of the specific
intent element of the charge to which he pleads guilty, the error is
susceptible to review under the constitutional harmless error standard.

4

that the defendant understood the crime to which he pleaded guilty. Next, we
clarify that, to ensure a defendant understands what he is pleading guilty to, a trial
court should explain the crime to a degree commensurate with the nature and
complexity of that crime.

Then, we examine the record to determine if it

demonstrates by a preponderance of the evidence that Brooks understood the
charge of theft from a person when he pleaded guilty, and we conclude that it
does. Therefore, we hold that Brooks’s prior guilty plea for theft from a person
was constitutionally valid.

A.
¶8

Law

A guilty plea is constitutionally valid when it has been made “voluntarily,

knowingly, and intelligently.” Bradshaw v. Stumpf, 545 U.S. 175, 183 (2005) (citing
Brady v. United States, 397 U.S. 742, 748 (1970)). To demonstrate that a plea is
constitutionally valid, “the record [must] affirmatively show the defendant’s
understanding of the critical elements of the crime to which the plea is tendered.”
Watkins v. People, 655 P.2d 834, 837 (Colo. 1982). The relevant mens rea is a critical
element of the crime. See id. at 838 (listing specific intent as a critical element). If
a defendant wishes to challenge the constitutional validity of a guilty plea, he
“must make a prima facie showing that the guilty plea was unconstitutionally
obtained.” Lacy v. People, 775 P.2d 1, 6 (Colo. 1989). If the defense makes this prima
facie showing, then the prosecution can rebut it by establishing “by a
5

preponderance of the evidence that the conviction was obtained” constitutionally.
Id. at 6–7.
¶9

When evaluating whether a conviction was constitutionally obtained, we

note that “no particular litany need be followed in accepting a tendered plea of
guilty” and that “the degree of explanation that a court should provide depends
on the nature and complexity of the crime.” Id. at 6. We have previously provided
guidance on which types of crimes are relatively complex and which are relatively
easy to understand. See id. (explaining that aggravated robbery and second-degree
murder are “understandable by persons of ordinary intelligence,” whereas crimes
such as conspiracy to commit burglary “require a greater showing of the
defendant’s understanding”).

Therefore, what is necessary to establish a

defendant’s understanding of the charge against him depends on the crime’s
complexity.

B.
¶10

Application

Brooks contends that he did not understand that he needed to have the

specific intent to permanently deprive the victim of her property when it was
taken. Brooks asserts that, without that understanding, his plea is constitutionally
invalid. To determine Brooks’s understanding of the charges against him, we look
at the record as a whole and focus on five aspects. First, we consider the nature of
the offense to which he pleaded guilty to see how difficult it is to understand the
6

elements of the crime charged. Second, we review the charging document to see
if it properly advised Brooks of the charge he was facing. Third, we examine how
the court advised Brooks during the plea hearing. Fourth, we consider Brooks’s
prior experience with the criminal justice system. Parke v. Raley, 506 U.S. 20, 36–37
(1992). Finally, because Brooks was represented by competent counsel, we factor
in defense counsel’s “assurance that the defendant has been properly informed of
the nature and elements of the charge to which he is pleading guilty.” Bradshaw,
545 U.S. at 183.
¶11

First, theft is not an abstract concept. People steal property because they

want to keep, use, or sell it. Thus, the intent to permanently deprive the victim of
property is not difficult to understand because keeping the stolen property serves
as the motivation for taking the item in the first place. We have previously
concluded that crimes such as second-degree murder and aggravated robbery are
easily understandable by a layperson, see Lacy, 775 P.2d at 6, and require less of a
showing to establish that the defendant understood the charge to which he
pleaded guilty. Certainly, theft falls safely within the sphere of those crimes, and
can be readily contrasted with more complicated crimes like conspiracy to commit
burglary.2 Because we conclude that the crime of theft from a person is relatively

As an illustration, consider the elements of theft and the elements of conspiracy
to commit burglary, side by side. Upon doing so, it is clear that the elements of
theft are relatively simple, whereas the elements of conspiracy to commit burglary
2

7

simple, the level of explanation required to demonstrate that Brooks understood
what he was pleading guilty to is relatively low.
¶12

Second, the charging document in this case was deficient because it omitted

the specific intent element of theft from a person:
COUNT 2-THEFT FROM A PERSON (F5)
That on or about April 17, 2010 in, or triable in, the County of Boulder,
State of Colorado KYLE CHANCE BROOKS unlawfully, feloniously,

are more complicated and, in addition, also require a defendant to understand the
elements of burglary itself:
Theft

Conspiracy to Commit Burglary

1. That the defendant,

1. That the defendant,

2. In the State of Colorado, at or
about the date and place
charged,

2. In the State of Colorado, at or
about the date and place
charged,

3. Knowingly,

3. With the intent to promote or
facilitate the commission of the
crime of burglary,

4. Obtained, retained, or exercised
control over anything of value of
another,

4. Agreed with another person or
persons that they, or one or more
of them, would engage in
conduct which constituted the
crime of burglary or an attempt
to commit the crime of burglary,
and

5. Without authorization or by
threat or deception, and
6. Intended to deprive the other
person permanently of the use or
benefit of the thing of value.
COLJI-Crim. 4-4:01 (2018).

5. The defendant, or a coconspirator, performed an overt
act to pursue the conspiracy.
COLJI-Crim. G2:05 (2018).

8

and knowingly took a thing of value, namely: a purse, from the
person of [the victim]; in violation of section 18-4-401(1), (5), C.R.S.
Because of the lack of the specific intent element, we find that the charging
document failed to properly inform Brooks of all critical elements of the charge.
¶13

Third, the trial court advised Brooks in the same manner as the charging

document and did not mention the specific intent element. During the plea
hearing, the trial court read the charge verbatim from the charging document:
How do you plead with respect to that added Count 2 which charges
on or about April 17, 2010, in or triable in the county of Boulder, state
of Colorado, you unlawfully, feloniously, and knowingly took a thing
of value, namely a purse, from the person of [the victim] in violation
of section 18-4-401(1), (5), C.R.S.?
Because the court’s advisement suffered from the same flaw as the charging
document, we find that it too failed to inform Brooks of the critical element of
specific intent to permanently deprive the victim of property.
¶14

Fourth, we rely on Brooks’s prior experiences with the criminal justice

system to evaluate his understanding of his guilty plea to theft from a person; in
particular, we consider his previous guilty plea for misdemeanor theft. The trial
court found that Brooks pleaded guilty to theft just a year before his 2010 guilty
plea, and even though that theft was a misdemeanor, it had the same “specific
intent to permanently deprive” element as theft from a person. See § 18-4-401(1)(a),
(5), C.R.S. (2019). At the time he entered that guilty plea, Brooks was properly
advised—and he acknowledged that he understood—that he needed to have the
9

specific intent to permanently deprive the victim of the property taken to be guilty
of misdemeanor theft. He did not express any confusion or challenge that he had
the specific intent to permanently deprive the victim of property in the 2009 guilty
plea.
¶15

Finally, the trial court here expressly found that Brooks was represented by

competent counsel in the 2010 case, and Brooks stated on the record in 2010 that
defense counsel discussed the Rule 11 advisement form with him, and that he
understood the charge to which he pleaded guilty. That form, which Brooks and
defense counsel both signed, stated that defense counsel “discussed the facts and
law applicable to this matter with [Brooks] including the necessary culpable mental
state, possible defense(s), and potential penalties.” (Emphasis added.) Because we
have written assurance from competent counsel that Brooks understood what he
was pleading guilty to, we rely on it in determining whether Brooks made a
knowing, intelligent, and voluntary plea in accordance with constitutional
principles.
¶16

In considering the record as a whole, we agree with Brooks that he made a

prima facie showing that his theft from a person charge was constitutionally
invalid, but we conclude by a preponderance of the evidence that Brooks
understood the elements of the crime to which he pleaded guilty. When taken
together, the relatively simple nature of the crime of theft from a person, Brooks’s
10

guilty plea to misdemeanor theft just a year earlier, and defense counsel’s written
assurance that she explained to him the mens rea required to commit the offense,
convince us that Brooks understood what he was pleading guilty to at the time he
entered his plea. Accordingly, we hold that Brooks’s prior guilty plea for theft
from a person was constitutionally valid.

IV.
¶17

Conclusion

We vacate the opinion of the court of appeals and affirm the judgment on

different grounds.

11










$33(1',;&

COLORADO SUPREME COURT CASE ANNOUNCEMENTS
------------------------------------------------------------------------------------------------------------------PETITIONS FOR REHEARING
The Supreme Court of the State of Colorado
2 East 14th Avenue • Denver, Colorado 80203
2019 CO 75M
Supreme Court Case No. 17SC614
Certiorari to the Colorado Court of Appeals
Court of Appeals Case No. 13CA1750
Petitioner:
Kyle Brooks,
v.
Respondent:
The People of the State of Colorado.
Opinion modified, and as modified, Petition for Rehearing DENIED. EN BANC.

6

